           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


       THE SOCIAL SECURITY
    ADMINISTRATION’S REGIONAL
      OFFICE PROCEDURES FOR
   ADDRESSING EMPLOYEE-RELATED
     ALLEGATIONS IN REGION III

 September 2004     A-03-04-14044



AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY

MEMORANDUM

Date:   September 23, 2004                                                                Refer To:

To:     Laurie Watkins
        Regional Commissioner
         Philadelphia

From:   Assistant Inspector General
         for Audit

Subject: The Social Security Administration’s Regional Office Procedures for Addressing
        Employee-Related Allegations in Region III (A-03-04-14044)


        OBJECTIVE
        Our objectives were to evaluate the adequacy of the Social Security Administration’s
        (SSA) policies and procedures for addressing employee-related allegations, determine
        how well SSA complied with these policies and procedures, and determine whether
        SSA actually referred all employee-related allegations that should have been referred to
        the Office of the Inspector General (OIG).

        BACKGROUND

        SSA receives various types of allegations related to its programs, the misuse of Social
        Security numbers (SSN), and employee conduct. Some examples of employee-related
        allegations include standards of conduct, ethics violations, theft of Government property
        and rude behavior and/or poor service to SSA’s customers. SSA receives allegations
        from employees, the public, and the OIG.1 Allegations concerning SSA employees are
        significant because of the potential losses to SSA’s programs and the corresponding
        negative public impact. In determining the validity of allegations, SSA is required to
        conduct sufficient development to support or remove suspicion that criminal violations
        may have been committed.2

        1
          OIG receives employee-related and other allegations through SSA’s fraud hotline. OIG then passes
        these allegations to the responsible SSA component for investigation, resolution and if necessary referral
        back to the OIG Office of Investigations.
        2
            SSA, Program Operations Manual System (POMS), GN 04110.010A, Developing Violations.
Page 2 – Laurie Watkins


SSA’s policy states:

        Prior to referral to the Office of the Inspector General, Office of Investigations
        Field Division, each potential violation and allegation must be developed by
        the field office, processing center, or other SSA office to the point where
        enough evidence has been secured to either remove suspicion or
        substantiate the violation.3

In the Philadelphia Region (Region), the Office of the Regional Commissioner (ORC)
and the Center for Security and Integrity (CSI) receive employee conduct and program-
related allegations (see diagram). The ORC receives and reviews allegations that do
not appear to involve fraud and forwards the allegations to the appropriate field office or
component to be developed. CSI receives and reviews allegations that appear to
involve fraud or employee misconduct that may result in an adverse action. CSI is
responsible for supporting field office managers in developing potential fraud issues by
using computer system analysis and providing other technical support. Employee
allegations that are potential criminal violations must be referred to the OIG for
appropriate action.4 Cases involving employee misconduct that are not potential
criminal violations are referred to the Center for Human Resources’ (HR) Employee
Relations Staff for adverse actions. The ORC and CSI workflow processes are
illustrated in Appendix C.


                                                          Referrals of
                                                           Allegations
                                                        Received Through
                                                          OIG Hotline


                                       Philadelphia Region

              Allegations                         Office of the
            Received From                          Regional
          Sources Other Than                     Commissioner
            OIG Referrals
                                                          Center for Security
                                                            and Integrity




3
    SSA, POMS, GN 04110.010 B, Developing Violations.
4
    SSA, POMS, GN 04112.005 B, Reporting Employee Criminal Violations — General.
Page 3 – Laurie Watkins


In Fiscal Years (FY) 2001 and 2002, OIG referred 44 employee-related allegations to
the Region for action – most related to poor customer service. In addition, the Region
received 19 employee-related allegations from sources other than the OIG – many
related to unauthorized system access.5 The table below provides a summary of the
63 employee-related allegations referred to the Region in FYs 2001 and 2002 by type of
violation.

                        Table: Type of Employee-Related Allegations
                                                   Number       Number of
                             Type of                of OIG       Non-OIG
                            Violation             Referrals      Referrals
              Poor Customer Service                              38
              Time and Attendance Abuse                           2
              Discrimination                                      1
              Mismanagement                                       1
              Assault/Harassment                                  1
              Employee Ethics Violation                           1
              Unauthorized System Access                                             8
              Potential Fraud                                                        7
              SSN Misuse                                                             3
              Sale of Narcotics                                                      1
                              Total                              44                 19

RESULTS OF REVIEW
Our review disclosed that the Region generally (1) had adequate policy and procedures
in place to address employee-related allegations and (2) referred potential criminal
violations to the OIG as required. However, we found the following areas needed to be
addressed.

    •   There was inadequate documentation to support whether employee-related
        allegations were properly resolved for 11 of the 63 allegations received.

    •   The ORC’s tracking system did not include all employee-related allegations.

    •   CSI did not maintain a tracking system to document the receipt, review, and
        clearance of employee-related allegations.




5
  Since the ORC or CSI do not maintain control logs for non-OIG allegations, we cannot be assured that
this is a complete accounting of allegations referred from other sources. This issue is discussed in detail
later in the report. The SSA OIG has separately reviewed systems security violations by Agency
employees. See our report The Social Security Administration’s Monitoring of Potential Employee
Systems Security Violations (A-14-04-23004), July 2004.
Page 4 – Laurie Watkins


CASE DEVELOPMENT AND DOCUMENTATION

The Region did not have adequate documentation to either remove suspicion or
substantiate the violation, as required by SSA policy, for 8 of the 446 employee-related
allegations referred by the OIG. In addition, case files for 3 of the 19 employee-related
allegations received from other sources were not adequately documented to support
whether they were resolved.

                                                      Figure: Adequacy of Documentation
             Employee Related Allegations




                                                      60
                                                      50
                                                      40
                                                      30
                                                      20
                                                      10
                                                       0
                                                            File Not Found   Insufficient   Adequate
                                            Other Sources         0               3           16
                                            OIG Referrals         2               6           36




Allegations from the Office of the Inspector General

Six case files for allegations referred by the OIG did not include sufficient evidence to
support whether the allegations were developed. For two additional OIG referrals, the
ORC could not locate the case files.

Insufficient Evidence - For the six allegations, which involved poor customer service, the
files did not include evidence that the allegations were developed. The ORC’s
procedure for OIG referrals is to review each referral and then forward it to the
appropriate field office or component for development. When the ORC receives a
response from the field office or component describing the actions taken, the response
is reviewed to determine if the resolution appears appropriate. If so, the ORC forwards
a copy of the response to the OIG to close the referral.7 Although we found that the
ORC maintained copies of the actual referrals for the six employee-related allegations, it


6
 Of the 44 allegations referred by the OIG, 42 were sent to the ORC and 2 were sent directly to CSI
because they involved potential fraud.
7
    See Appendix C, page 1 for a description of the ORC’s procedures for OIG referrals.
Page 5 – Laurie Watkins


could not provide evidence to show that the appropriate field office or component had
developed the allegations. As a result, these allegations remained unresolved.

Missing Case Files - For the two allegations, which involved time and attendance abuse
and poor customer service, the ORC could not locate the referrals or evidence that
showed the allegations had been developed.

Allegations from Other Sources

CSI’s case files for the three allegations received from other sources did not include
sufficient evidence to determine the status of the allegations. According to CSI staff,
when they investigate an employee-related allegation, one of three actions should occur
when the case is resolved.8

      •   If the allegation is unsubstantiated, the case file is annotated, and a response
          may be sent to the employee’s manager indicating nothing was found and the
          case was closed.

      •   If employee misconduct is substantiated, the case is referred to HR for
          administrative or disciplinary action.

      •   If criminal activity is suspected, the case is referred to OIG for appropriate
          action.9

Although the case files for the three allegations contain evidence that CSI had
conducted investigations and found the three employees were guilty of employee
misconduct, there was no evidence in the files that the cases were referred to HR for
administrative or disciplinary action. For example, in one case an employee was
arrested by local law enforcement for suspicion of driving under the influence. While in
custody, the local law enforcement found four Medicare cards in his possession. CSI’s
case file indicated that the employee had admitted to removing the Medicare cards from
various case folders and gave the cards to individuals at no cost to obtain discounted
fares from the local transportation authority. While the file contained evidence that the
OIG was notified about the case, it did not contain clear evidence that the case was
referred to HR for an adverse action.

We reviewed HR’s personnel files to determine if the three employees had received an
adverse action and we found that two of the employees were suspended for 14 days
and the other employee resigned before an adverse action could be taken. Although it
appears CSI referred the cases to HR, it needs to ensure that the case files accurately
reflect the status of the allegation.


8
    See Appendix C, page 2 for a detail description of CSI’s procedures for employee-related allegations.
9
    These cases could also be referred to HR for administrative or disciplinary action.
Page 6 – Laurie Watkins


RECEIPT AND CONTROL OF ALLEGATIONS

SSA’s procedures require the Region to preserve records that (1) adequately and
properly document the organization, functions, policies, decisions, procedures, and
essential transactions of the Agency and (2) protect the legal and financial rights of
the Government and persons directly affected by its activities.10 In addition, SSA’s
procedures require that control logs be retained for a 2-year period.11

Our review found that the ORC’s tracking system was inadequate because it did not
include all employee-related allegations. Also, we found that CSI did not maintain a
control log to track the receipt and disposition of employee-related allegations.

Office of the Regional Commissioner

The ORC’s Correspondence Tracking System, which is used to track all
correspondence received by the ORC including OIG referrals, was incomplete because
37 of the 44 OIG referrals were not logged and the ORC did not track allegations
received from other sources. According to ORC staff, the OIG referrals were not logged
because the employee responsible for entering the data into the tracking system was
not aware of the requirement to log the referrals. The employee has since been
instructed to log all OIG referrals into the Correspondence Tracking System. Further, in
November 2003 the ORC issued written policy regarding OIG referrals where it requires
all OIG referrals to be logged into the tracking system. In addition, the policy requires
the ORC to maintain copies of the OIG referrals and supporting documentation for
2 years.

We found that the ORC did not track allegations received from other sources because it
did not have formal procedures in place to address these allegations. According to
ORC staff, a majority of the allegations received are service-related complaints (e.g.
timeliness of payments) that are resolved by ORC staff or the appropriate office and are
not tracked due to the volume or lack of severity of the complaint. SSA established a
new policy in July 2004 that requires the regions to track customer complaints to identify
trends to improve customer service.12 The tracking system should include the status of
complaints until they are resolved. Given that the allegations were not tracked, the
ORC was unable to account for or provide evidence that the allegations were resolved.
By not tracking the allegations, the ORC increases the risk that the allegations may not
be properly developed and resolved.



10
 SSA, Administrative Instructions Manual System, Records Management Handbook, SSA Records
Retention and Disposition Program, chapter 01.02.
11
  SSA, Operational and Administrative Records Schedules (OARS), Commissioner’s Correspondence
and Control Logs, CMS 02.01.00.
12
     SSA, OARS, Talking & Listening to Customers Electronic System, CMS 02.02.03.
Page 7 – Laurie Watkins


Center for Security and Integrity

Our review found that CSI did not maintain a tracking system or control log to document
the receipt, review, and disposition of employee allegations. CSI’s policy is to create a
case file only when an allegation is investigated. CSI provided us with case files for
19 employee-related allegations referred from other sources during FYs 2001 and 2002.
Since CSI did not have a tracking system, we cannot be assured that the 19 case files
represent a complete accounting of all employee allegations received and resolved.
Furthermore, maintaining an adequate control system could assist CSI to ensure
appropriate follow-up, eliminate duplication of efforts, and allow for the establishment of
management information related to allegation trends.

CONCLUSION AND RECOMMENDATIONS

While the Region’s policies and procedures for addressing employee-related allegations
were generally adequate, we found the Region could improve in the areas of case
development and documentation and receipt and control of allegation. Therefore, we
recommend the Philadelphia Regional Office:

1. Maintain evidence (that is, case development, documentation, and control logs) that
   supports the clearance of employee-related allegations.

2. Develop and implement written policies and procedures for allegations from non-OIG
   sources to ensure appropriate information is recorded in the control system.

3. Develop and implement a control system that documents the receipt, development,
   and disposition of employee-related allegations.

AGENCY COMMENTS
The Region generally agreed with our first recommendation. The Region stated that it
agreed that evidence supporting the resolution of employee-related allegations should
be retained. However, it suggested that for allegations received from the OIG Hotline,
Regional Offices should be provided the capability of using the existing Allegation
Management Division (AMD) system to show jurisdictional transfers and case
resolution.

The Region agreed partially with our second recommendation. The Region stated that
it agreed that documentation used to take an administrative action should be maintained
to support the action and that the current HR system does, generally, meet that need.
However, due to the sensitive and confidential nature of the documentation, it does not
agree that this information should appear on another system beyond the official adverse
action file.

The Region generally agreed with our third recommendation. The Region stated that it
agreed that it is important to control all allegations for resolution and it believes its
Page 8 – Laurie Watkins


current process of controlling non-OIG allegations is effective. Further, the Region
stated that the creation of a separate and new system of record (SOR) using personal
identifiers to track on-going allegations is an issue that it suggests be discussed at the
national, rather than regional level, given the requirement that SORs must first be
published in the Federal Register according to the Privacy Act requirements.

The Region disagreed with the narrative comment section stating there was no
evidence in three files that the cases were referred for administrative or disciplinary
action. According to the Region, the three files were working papers and not official
files. Each file contained working paper notes and annotations indicating the names of
people notified and the notification dates. Further, the Region stated that the cases
were referred to the Center for Human Resources for administrative action and the
employees received a disciplinary action. However, the Region did concede that the
case files lacked a clear statement such as "referred to HR." The text of the Region’s
comments is included in Appendix D.

OIG RESPONSE
We appreciate the Region’s comments on our report. Further, the Region provided
technical comments that we considered and incorporated, where appropriate.

In regards to our first recommendation, we appreciate the Region’s suggestion that
Regional offices be provided access to AMD’s system. However, due to the confidential
and sensitive information maintained in the database, the OIG cannot provide the
regional offices with access to the system. We believe the current process, which
involves the Regions sending electronic responses to AMD is adequate for resolving the
OIG referrals.

In reference to our second and third recommendations, we agree that the official
adverse action file should include documentation used to take an administrative action
against an employee. However, for those employee-related allegations where an
administrative action is not warranted, an adverse action file would not be established.
Therefore, we believe all employee-related allegations should be part of an allegation
control process that documents the receipt, development, and disposition of all
allegations. Further, we believe the Region does not have to use personal identifiers to
track each allegation. The Region could use a sequential control number to properly
account for all allegations.

Concerning our narrative comments about the status of the three allegations, we
acknowledged in the report that CSI had referred the three cases to HR for
administrative action based on our review of HR files. However, since CSI did not
maintain a tracking system or control log, the status of these allegations was unclear
based on our review of the case files. We believe a control log would assist CSI in
ensuring the receipt, development, and disposition of its cases. We made a similar
recommendation in our June 2004 audit report, The Social Security Administration’s
Regional Office Procedures for Addressing Employee-Related Allegations in Region VIII
Page 9 – Laurie Watkins


(A-06-04-14075), where we found Region VIII's CSI did not maintain a tracking system
for allegations received. Region VIII agreed to implement our recommendation by
establishing a system that would track and control all allegations received.




                                              S
                                              Steven L. Schaeffer
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Flowcharts for Employee-Related Allegations

APPENDIX D – Employee Violations

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                  Appendix A
Acronyms
AMD        Allegation Management Division
CSI        Center for Security and Integrity
FY         Fiscal Year
HR         Center for Human Resources
OARS       Operational and Administrative Records Schedules
OIG        Office of the Inspector General
ORC        Office of the Regional Commissioner
POMS       Program Operations Manual System
Region     Philadelphia Region
SSA        Social Security Administration
SSN        Social Security Number
                                                                     Appendix B
Scope and Methodology
We limited our review to employee-related allegations received by the Office of the
Regional Commissioner (ORC), the Center for Security and Integrity (CSI), and adverse
actions processed by the Center for Human Resources (HR) for Fiscal Years (FY) 2001
and 2002. To accomplish our objectives, we:

   •   Reviewed the following criteria:

          •   Office of Management and Budget Circular A-123, Management
              Accountability and Control,
          •   Program Operations Manual System,
          •   The Social Security Administration’s (SSA) Administrative Instructions
              Manual System,
          •   Annual Personnel Reminders, and
          •   Standards of Ethical Conduct for Employees of the Executive Branch.

   •   Obtained a database of allegations received by the Office of the Inspector
       General (OIG) in FYs 2001 and 2002 to identify the universe of employee-related
       allegations in Region III.

   •   Reviewed 44 employee-related allegations received from the OIG Hotline.

   •   Reviewed the 19 employee-related allegations received from sources other than
       the OIG.

   •   Interviewed officials within the ORC, CSI, and HR in Philadelphia, Pennsylvania.

   •   Reviewed ORC and CSI documentation for the development of evidence related
       to allegations received from the OIG and other sources.

   •   Reviewed documentation processed by HR for the development of evidence
       applicable to the adverse actions.

We performed fieldwork in Philadelphia, Pennsylvania from September 2003 through
April 2004. The entity audited was the Philadelphia Regional Office within the Office of
the Deputy Commissioner for Operations. We conducted our review in accordance with
generally accepted government auditing standards.
                                                                                                                             Appendix C
Flowcharts for Employee-Related Allegations
                                                 Office of the Regional Commissioner
                                                         Workflow Process for
                                                     Employee Related Allegations


                                                 Regional             Regional
                           Office of the       Commissioner         Commissioner                  Center for Security    Senior Management in
         Source       Regional Commissioner   Executive Officer   Executive Assistant             and Integrity (CSI)   Component or Field Office




                           Secretary                Reviews
                              logs                    and                                   Yes       Develops and
      Office of the                                                                                  investigates in
                           allegation               assigns               Is allegation
       Inspector                                                                                    coordination with
                               into                 action to             fraud related?
     General (OIG)                                                                                        OIG
                            tracking               Executive
        Hotline                                                                                        (See page
                             system                Assistants
                                                                                                          C-2)
                                                                                                                              Develops
                                                                                                                                case to
                                                                                                                              determine
                                                                                                                               outcome
                           Updates                                                                   No
                           tracking
                            system
                                                                         Reviews and
                                                                           prepares                                             Sends
                                                                         response for                                         response
                                                                             OIG                                             to Regional
                                                                                                                                office




                                               Stores in folder          Stores in folder
                                              in e-mail system          in e-mail system
                                                 for 2 years               for 2 years



                                                                  C-1
                          Center for Security and Integrity
                              Workflow Process for
                           Employee Related Allegations

                                             Source



                                                                  Non-OIG External
           OIG Hotline               Non-OIG Internal
                                                                  e-mails, phone calls
                                  Internal e-mails, phone
                                                                    and surface mail
                                  calls, and surface mail




                                      CSI Director
                             Develops case and consults with
                              OIG, Human Resources (HR),
                                 and managers to make
                               determination of allegation




                                        Is allegation
   Fraud                                   -Fraud,
                                    -Unsubstantiated or                      Administrative action
                               - Administrative action related?




                                      Unsubstantiated



                                   OIG Hotline, Senior
Special Agent in Charge          Management, and others                    HR
  OIG Field Division             receives response from
                                           CSI




                                             C-2
                                                                                         Appendix D
Employee Violations
                        LIST OF POTENTIAL EMPLOYEE VIOLATIONS
 Employee violations include but are not limited to situations in which an employee is suspected of
 willfully:
     •   acting as an agent or attorney for prosecuting any Social Security claim before the
         Commissioner while an employee;
     •   disclosing without authorization any confidential information in violation of the Social Security Act
         or the Privacy Act of 1974;
     •   obtaining or attempting to obtain confidential information under false pretenses;
     •   making or causing to be made any false representation concerning the requirements of the
         Social Security Act or related provisions of the Internal Revenue Code;
     •   asking for, accepting, or agreeing to accept anything of value from a third party in return for
         executing or influencing the performance of official duties;
     •   participating in the planning or execution of any scheme or other activity under which a financial
         or other advantage improperly accrues or could accrue to any person or organization at the
         expense of the Government or parties with whom the Government may contract or otherwise
         deal;
     •   stealing or otherwise illegally disposing of refund remittances, Government checks, cash,
         directly deposited funds, or other obligations;
     •   illegally generating Social Security checks or depositing funds electronically to oneself or
         another;
     •   stealing or mutilating Government records, or destroying or removing them without authorization;
     •   violating conflict of interest laws as described in the Ethics in Government Act, the Standards of
         Ethical Conduct for Employees of the Executive Branch, and the Social Security Administration’s
         Guide on Employee Conduct;
     •   making or causing to be made any false statement or representation about wages, earnings, or
         self-employment income in connection with claims or the maintenance of earnings records;

     •   making or causing to be made any false statement or representation of a material fact in an
         application for payments or for a disability determination, or at any other time for use in
         determining rights to payments;
     •   concealing or failing to disclose a fact or event affecting initial or continued eligibility for
         payment;
     •   furnishing or causing to be furnished false information about identity in connection with a claim,
         issuing a Social Security number (SSN), or maintaining an earnings record;
     •   selling SSNs/cards; or
     •   unlawfully disclosing, using, or compelling the disclosure of an SSN.
Source: SSA, Program Operations Manual System GN 04112.005D.
                  Appendix E
Agency Comments
                             SOCIAL SECURITY
MEMORANDUM

Date:    August 24, 2004                                         Refer To:   A-03-04-14044

To:      Steve Schaeffer
         Assistant Inspector General

From:    Laurie Watkins
         Regional Commissioner


         Thank you for the opportunity to comment on the subject draft report. Please find
         our remarks below.

         We agree that evidence supporting the resolution of employee-related allegations
         should be retained. For allegations received through the Hotline, Regional
         Offices should be provided the capability of using the existing AMD system to
         show jurisdictional transfers and case resolution. Regions should also have the
         capability of making interim notes. This would then eliminate the need to develop
         an entire subsystem to control work. Documentation of employee-related
         allegations resulting in administrative remedy should be retained with the Center
         for Human Resources (CHR), as CHR is responsible for the adjudication of the
         issue. CHR routinely does this in all cases. This parallels the documentation
         repository by the OIG Office of Investigation when issues of fraud are
         adjudicated.

         We agree that documentation used to take an administrative action should be
         maintained to support that action. The current HR system does, generally, meet
         that need. The documentation is retained in an HR file specific to each
         employee. Due to the sensitive and confidential nature of the documentation, we
         do not agree that this information should appear on another system beyond the
         official adverse action file.

         We agree that it is important to control all allegations for resolution. Controlling
         issues for receipt can be effectively accomplished in many ways. Currently, all
         allegations from sources other than OIG are controlled in the region, and we do
         an excellent job of controlling those cases. All cases are routed to one person
         who immediately establishes a secure file. That case file is housed in a separate
         locked location. Because of the limited number of cases in any year and the
         limited number of cases pending at any time (fewer than 10), this method
         provides for both an effective and secure control.

         The creation of a separate and new system of record (SOR) using personal
         identifiers to track on-going allegations is an issue that we suggest be discussed
                                             E-1
at the national, rather than regional level, given the requirement that SORs must
first be published in the Federal Register according to the Privacy Act
requirements.

From a technical perspective, we disagree with the narrative comment section
stating there was no evidence on three cases that the files were referred for
administrative or disciplinary action. The three files in question contained only
working papers and were not official files. As such, each file contained working
paper notes and annotations indicating the names of people notified and the
notification dates. In each case, the notification was given to the assigned staff
member in CHR who eventually was responsible for the administrative action.
Further evidence that the cases were referred are the resulting disciplinary
actions. We do concede the file lacked a clear statement such as "referred to
HR", but, again, the audit team reviewed a working file.

If you wish to discuss our comments on the draft report, please call me or have
your staff contact Patricia Feinstein, Center Director for Security and Integrity at
(215) 597-7740.


                                                         /s/
                                                  Laurie Watkins
                                                  Regional Commissioner



[In addition to the items listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]




                                     E-2
                                                                       Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts
Walter Bayer, Director, Mid-Atlantic Division, (215) 597-4080

Cylinda McCloud-Keal, Audit Manager, (215) 597-0572


Acknowledgments
In addition to those named above:

Mary Dougherty, Auditor-in-Charge

Annette DeRito, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-03-04-14044.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
